Reliant Community Federal Credit Union
Visa Platinum Credit Card
as of May 1, 2021
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

7.50%, 8.50%, 10.50%, 13.50%, or 16.50%

Variable APR is determined by an Index plus a Margin. The Index is the highest Prime Rate
published in The Wall Street Journal on the last business day of the month preceding the current
calendar quarter. The Margin is 4.25%, 5.25%, 7.25%, 10.25% or 13.25% depending on a sixmonth review of your credit history. Your variable rate will not exceed 18% APR.

0.99% new account introductory rate for six months after account is open for all purchases.
APR for Balance Transfers

7.50%, 8.50%, 10.50%, 13.50%, or 16.50%

Variable APR is determined by an Index plus a Margin. The Index is the highest Prime Rate published
in The Wall Street Journal on the last business day of the month preceding the current calendar quarter.
The Margin is 4.25%, 5.25%, 7.25%, 10.25% or 13.25% depending on a six-month review of your
credit history. Your variable rate will not exceed 18% APR.

0.99% new account introductory rate for six months after account is open for all balance transfers.
APR for Cash Advances

7.50%, 8.50%, 10.50%, 13.50%, or 16.50%

Variable APR is determined by an Index plus a Margin. The Index is the highest Prime Rate published
in The Wall Street Journal on the last business day of the month preceding the current calendar quarter.
The Margin is 4.25%, 5.25%, 7.25%, 10.25% or 13.25% depending on a six-month review of your
credit history. Your variable rate will not exceed 18% APR. Convenience checks are considered cash
advances.

0.99% new account introductory rate for six months after account is open for all cash advances.
How to Avoid Paying
Interest on Purchases:

If you pay the total new balance for purchases by the payment due date on your last statement, or if
you did not have a purchase balance on your last statement. Your due date is at least 25 days after
the close of each billing cycle.
We will begin charging interest on cash advances, convenience checks, and balance transfers on
the transaction date.

Minimum Finance Charge

$0

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Annual Fee

$0

Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction

$0
$0
$0

Penalty Fees
Late Payment
Returned Check
Over-the-Limit

Lesser of amount of minimum payment due or $25
$20 per check
$0

Other Fees
Rushed Card

$30

FEES

How We Will Calculate Your Balance: The finance charge is calculated on the average daily balance including new transactions.
Billing Rights: See Visa Plan Agreement for details.

Military Lending Act Disclosures
Federal law provides protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the credit transaction; any application fee (other than certain application
fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit
card account).
Please call us at (800)724-9282 to receive oral disclosures of the Military Lending Act disclosure above and a description of the
payment obligation.

M-133704

